APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(August 12, 2019) . . . . . . . . . . . . . App. 1
Appendix B Order Denying Terry Reed and Erin
Shepherd’s Motion for Summary
Judgment; Granting Shelby County’s
Motion for Summary Judgment in the
United States District Court for the
Western District of Tennessee
Western Division
(January 22, 2019) . . . . . . . . . . . App. 10

App. 1

APPENDIX A
RECOMMENDED FOR FULL-TEXT PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 19a0191p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 19-5084
[Filed August 12, 2019]
_________________________________________
ANGELA STUDDARD, individually and as
lawful wife, next of kin, administrator ad
litem, and personal representative for
Edmond Studdard, deceased, and
Estate of Edmond Studdard,

)
)
)
)
)
)
Plaintiff-Appellee,
)
)
v.
)
)
SHELBY COUNTY, TENNESSEE, et al.,
)
)
Defendants,
)
)
ERIN J. SHEPHERD and TERRY I. REED,
)
individually and as employees or agents
)
of Shelby County, Tennessee,
)
)
Defendants-Appellants.
)
_________________________________________ )

App. 2
Appeal from the United States District Court for the
Western District of Tennessee at Memphis.
No. 2:17-cv-02517—Jon Phipps McCalla,
District Judge.
Argued: August 6, 2019
Decided and Filed: August 12, 2019
Before: SUTTON, GRIFFIN, and READLER, Circuit
Judges.
_________________
COUNSEL
ARGUED: E. Lee Whitwell, SHELBY COUNTY
ATTORNEY’S OFFICE, Memphis, Tennessee, for
Appellants. Daniel A. Seward, SEWARD LAW FIRM,
Memphis, Tennessee, for Appellee. ON BRIEF: E. Lee
Whitwell, John Marshall Jones, SHELBY COUNTY
ATTORNEY’S OFFICE, Memphis, Tennessee, for
Appellants. Daniel A. Seward, SEWARD LAW FIRM,
Memphis, Tennessee, for Appellee.
_________________
OPINION
_________________
SUTTON, Circuit Judge. May police officers shoot
an uncooperative individual when he presents an
immediate risk to himself but not to others? No, case
law makes clear. We thus affirm the district court’s
decision to deny the officers’ motion for summary
judgment based on qualified immunity.

App. 3
I.
Three scenes capture what happened. Each one
gives the benefit of the doubt to the plaintiff’s
presentation of the evidence.
Scene one. Just outside of Memphis on a hot July
day in 2016, Officer Kyle Lane, a deputy in Shelby
County, Tennessee, responded to a hit-and-run
dispatch call. After he arrived at the accident site,
several people told Lane that he should follow Edmond
Studdard, who was walking away along the road. One
of the bystanders told Officer Lane that Studdard had
slit his wrists and needed attention. Concerned, Lane
turned his patrol motorcycle around and rode after
Studdard.
Scene two. Lane rode a short way down the road,
saw Studdard, and pulled up next to him. He asked
Studdard to stop and talk with him. Studdard ignored
Lane’s request and responded to further inquiry by
turning toward Lane and displaying what appeared to
be a knife. At that point, Lane noticed Studdard’s
bloody wrists.
Lane continued to follow Studdard, who
intermittently walked and ran along the northbound
side of the street. Before engaging Studdard again,
Lane decided that he needed support. Lane sent out a
call for backup, noting that Studdard had a knife and
had slit his wrists. Three officers responded.
Deputies Samuel Pair and Erin Shepherd, on duty
together that day, arrived at about the same time as
Deputy Terry Reed. They parked their two vehicles

App. 4
north of Studdard, seeking to block traffic and his path
forward, while Lane continued to follow from the south.
Scene three. The three newly arrived officers exited
their vehicles and pulled out their firearms. Studdard
halted his northbound journey, taking up a spot in a
grassy area on the east side of the street. A bush stood
to Studdard’s north, while a fence blocked him to the
east. Lane (now off his motorcycle and with his gun
trained on Studdard) stood to the south, and the three
other officers stood to Studdard’s west in the
southbound lane of the road. Studdard faced the
officers to the west, about 34 feet away.
All four officers directed Studdard to drop the knife.
Studdard stood still, knife in hand. One of the officers
said that they would shoot if Studdard did not drop the
weapon. Studdard raised the knife up to his throat and
began moving forward in a “swaying” motion. R. 96-4 at
52–53. “Almost immediately,” Deputies Reed and
Shepherd opened fire from the southbound lane. R.
96-2 at 17. Reed shot twice, Shepherd three times.
Studdard, still in the grassy area, fell. Lane called for
an ambulance. Reed kicked the knife out of Studdard’s
hand, and all four officers began administering aid.
Studdard died in the hospital several weeks later due
to complications from the gunshot wounds.
Angela Studdard, his wife, filed this § 1983 action,
alleging that Officers Reed and Shepherd used
excessive force in violation of the Fourth Amendment.
The officers moved for summary judgment based on
qualified immunity. The district court denied their
motion.

App. 5
II.
The ground rules for resolving this appeal are
straightforward. Qualified immunity shields officers
from personal liability unless they violate an
individual’s clearly established constitutional rights.
Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982). A
seizure becomes unreasonable under the Fourth
Amendment if the officer uses excessive force. Graham
v. Connor, 490 U.S. 386, 394–95 (1989). To justify
lethal force, an officer must have probable cause to
believe the suspect presents an immediate threat of
serious physical harm to the officer or others.
Tennessee v. Garner, 471 U.S. 1, 11 (1985). In view of
the many settings in which officers may use force
against an uncooperative suspect, we must carefully
define the right in determining whether the officers
may be held liable. Kisela v. Hughes, 138 S. Ct. 1148,
1152–53 (2018) (per curiam). The facts of another case
need not be identical, but they must be similar enough
that the other case “squarely governs” this one. Id. at
1153 (quotation omitted). In deciding what the facts
are at summary judgment, we construe the record
evidence in favor of the non-movant—here Studdard.
Sims Buick-GMC Truck, Inc. v. Gen. Motors LLC, 876
F.3d 182, 185 (6th Cir. 2017). All things considered, we
construe uncertain facts in Studdard’s favor and
uncertain law in the officers’ favor.
Gauged by these standards, we think the district
court correctly denied the officers’ bid for qualified
immunity.
As a general matter, the officers’ actions violated
clearly established requirements in this area. When

App. 6
Officers Reed and Shepherd confronted Studdard, it’s
true, they had good reason to believe he was dangerous
and uncooperative. They knew or reasonably believed
that Studdard had a knife and that he had slit his
wrists. And he refused to comply with their commands
to put the knife down. But Studdard at this point did
not pose a serious risk to anyone in the area. No
bystander was remotely near him. And Officers Reed
and Shepherd, in the southbound lane of the road,
stood about 34 feet from Studdard, in the grassy area
east of the road. He made no verbal threats to them or
anyone else at the time. What he did do was raise the
knife to his throat when the officers warned that they
would use force if he did not put the knife down. And
when he raised the knife to his throat, he moved
forward in a swaying motion. These actions did not
justify lethal force.
As a specific matter, the officers’ actions violated
Sova v. City of Mt. Pleasant, 142 F.3d 898 (6th Cir.
1998). Officers faced a knife-wielding man who had
gashed his arms and chest. From inside his parents’
home, he told the police to go away. The officers
entered a screened porch off the kitchen of the house
and asked the man what he wanted. He replied that he
wanted the police to shoot him. When the man moved
toward the door to the porch, the officers yelled at him
to drop the knife. He did not comply and instead
stepped out on the porch. One officer sprayed the man
with mace, forcing him back inside the house. But the
man walked back to the door. When he pushed the
screen door open, but while he still stood in the
doorframe, the officers fired. Id. at 900–01, 902. On

App. 7
those facts, we held, a reasonable jury could find that
the officers used excessive force.
The two cases warrant the same outcome. Both
cases involved men with knives who had cut
themselves—and threatened worse to themselves. In
each case, the suspects ignored commands to drop their
knives. And in each case, the suspects made similar
movements toward the officers just before being
shot—one swaying forward from 34 feet away, one
opening the screen door onto the porch where the
officers stood. Sova indeed seems to be the harder case,
as the officers were closer to the suspect and more at
risk. That means Studdard’s claim deserves resolution
by a jury too.
The officers push back in several ways.
They start by taking issue with the facts. Even
viewing the evidence in Studdard’s favor, they say, it
reasonably supports only the conclusion that Studdard
began walking toward Deputies Reed and Shepherd
before they shot him. The district court rightly
disagreed. Reed and Shepherd, it’s true, said that
Studdard walked toward them before they fired. But
Deputy Lane said he did not see Studdard walk toward
them. Lane said Studdard moved his upper body
forward, in a swaying motion, but that he never saw
Studdard advance toward the officers.
While Lane admits that he focused on the knife at
Studdard’s throat instead of whether Studdard moved
his feet, other evidence supports Lane’s view that
Studdard merely swayed. Lane had a clear view of the
entire incident, which means he likely would have

App. 8
noticed if Studdard walked several feet toward the
officers (as they testified), even with his focus centered
on the knife. Lane also said the officers shot “[a]lmost
immediately” after Studdard raised the knife to his
neck, R. 96-2 at 17, which supports an inference that
not enough time elapsed for Studdard to walk forward.
And Shepherd testified that Studdard stood near the
middle of the 19-foot-wide grassy area before raising
the knife to his neck and beginning to move. Studdard
fell upon being shot, and no officers said they moved
him while administering aid. The paramedic found
Studdard 10 feet from the curb, in the middle of the
grassy area. That suggests, again, that Studdard didn’t
walk before the officers shot. At this stage, we must
assume Studdard swayed forward but never walked
toward the officers.
The officers try to separate Sova from this case.
They note that the interaction there lasted much longer
than the interaction in this case. That’s true. But it
doesn’t change matters.
The man in Sova, who had clearly heard and
responded to the officers, ignored their commands once
by coming onto the porch. And, despite being sprayed
with mace the first time, he began to approach again.
The history here, while not as long, provided no more
cause for concern. The officers add that the man in
Sova never walked forward through the door. True
again. But Studdard also did not walk forward. The
man in Sova moved his arm forward to open the door;
Studdard swayed forward. Any distinction between the
two cases is not a meaningful one. If anything, the
man’s action of pushing the screen door open in Sova

App. 9
seems like a more purposeful move toward the officers,
making this the easier case.
The officers also invoke Stevens-Rucker v. City of
Columbus, which granted officers qualified immunity
for using lethal force against a knife-wielding suspect.
739 F. App’x 834 (6th Cir. 2018). After the suspect in
that case twice recovered from being tased, an officer
shot him as he ran at them. Id. at 837, 842. There is a
world of difference between a knife-wielding suspect
who runs at officers and one who doesn’t. A different
officer, after chasing the suspect through an apartment
complex in the dark, shot him again upon confronting
him in an open space. That officer fired four quick
shots, two of which hit the suspect after he had fallen
down but while he pushed himself back off the ground.
Id. at 843–44. Studdard didn’t present the same kind
of perilous defiance, and the officers had better control
over the surroundings here.
We affirm.

App. 10

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TENNESSEE
WESTERN DIVISION
Case No. 2:17-cv-2517-JPM-tmp
[Filed January 22, 2019]
______________________________________
ANGELA STUDDARD individually and
as next of kin, administrator ad litem
and personal representative of
EDMOND STUDDARD, deceased, and
estate of EDMOND STUDDARD,

)
)
)
)
)
)
Plaintiff,
)
)
v.
)
)
SHELBY COUNTY, TENNESSEE;
)
ERIN J. SHEPHARD, in her individual )
capacity; and TERRY I. REED, in his
)
individual capacity,
)
)
Defendants.
)
______________________________________ )
ORDER DENYING TERRY REED AND ERIN
SHEPHERD’S MOTION FOR SUMMARY
JUDGMENT; GRANTING SHELBY COUNTY’S
MOTION FOR SUMMARY JUDGMENT

App. 11
Before the Court is Defendants Terry Reed and Erin
Shepherd’s Motion for Summary Judgment filed on
August 31, 2018. (ECF No. 89.) These two individual
defendants move for summary judgment, arguing that
they are entitled to qualified immunity. (Reed and
Shepherd’s Memo in Support of Summary Judgment,
ECF No. 89-1 at PageID 427.) For the reasons stated
below, the Motion is DENIED.
Also before the Court is Defendant Shelby County’s
Motion for Summary Judgment filed on August 31,
2018. (ECF No. 90.) Shelby County argues there is no
underlying constitutional violation, which prevents a
municipality from being held liable. (Shelby County’s
Memo in Support of Mot. for Sum. J., ECF No. 90-1 at
PageID 835.) Alternatively, Shelby County argues that
if there was a constitutional violation, Plaintiff “can
submit no evidence showing that such a violation was
the result of a policy, practice, custom, or failure to
train sufficient to establish liability on the part of
Shelby County.” (Id. at PageIDs 835-36.) For the
reasons set out below, the Motion of Shelby County is
GRANTED.
I. BACKGROUND
A. Factual Background
This action arises out of County Sheriff’s Deputies
Erin Shepherd and Terry Reed’s fatal shooting of
Edmond Studdard. (See Pl.’s Resp. to Def.’s Statement
of Undisputed Facts, ECF No. 115-2 at PageIDs
1641-43; Amended Complaint, ECF No. 33 at ¶ 23.) On
July 7, 2016, Studdard slit his writs and walked along
the shoulder of Big Orange Road where he was

App. 12
eventually boxed in by a fence and several Sheriff’s
Deputies. (Pl.’s Resp. to Def.’s Statement of Undisputed
Facts, ECF No. 115-2 at PageID 1634.) Reed and
Shepherd fired their guns at Studdard multiple times
resulting in his hospitalization. (Id. at PageIDs
1641-42.) Studdard died in the hospital on September
4, 2016. (Id. at PageID 1645.)
B. Undisputed Facts
The following facts are undisputed based on
Plaintiff’s Response to Defendants’ Statement of
Undisputed Facts (ECF No. 115-2) (internal citations
omitted throughout):
Shelby County Sheriff’s Office (SCSO) training
• SCSO “has policies for its deputies governing
firearms, deadly force, and suspects suffering from
mental illness” which “were in effect on and before
July 7, 2016.” (Id. at PageID 1621.)
• The SCSO provided training to Shepherd “regarding
firearms, use of force, and handling mentally ill
suspects.” Shepherd received training at the SCSO
training academy regarding mentally ill/unstable
suspects. “The training academy lasts six and a half
months.” (Id. at PageID 1622.)
• Additional training known as Critical Incident
Team (“CIT”) training “is a 40-hour class provided
at the Memphis Police Department training
academy.” It includes “advanced training on how to
deal with suspects suffering from mental illness or
incompetence.” (Id.)

App. 13
• “Erin Shepherd, Terry Reed, and Samuel Pair were
all CIT-certified as of and before the day Edmond
Studdard was shot--July 7, 2016.” (Id. at PageID
1623.)
• “Prior to becoming an SCSO Deputy, Reed was a
police officer in Millington, Tennessee.” “He became
a Sheriff’s Deputy in 2013.” (Id.)
• “In addition to CIT training, Reed received mental
health training during in-service with the SCSO
and at the SCSO training academy.” (Id. at PageID
16424.)
• “Shepard has a Bachelor’s degree in criminal justice
and a Master’s degree in criminology from the
University of Memphis.” “While she was a graduate
assistant, she was assigned to the CIT grant
program, which helped facilitate training for CIT
officers based on the CIT Memphis model.” (Id.)
• “SCSO deputies, including Reed and Shepherd,
received training on firearms, use of force, and
defense against suspects with weapons.” “SCSO
deputies are trained, when forced to fire, to aim
center mass and are not trained to shoot to kill, but
instead shoot to end the threat.” (Id. at PageID
1625.)
Initial response
• On July 7, 2016 Lane responded to a call reporting
a hit-and-run. When Lane responded, “Lane knew
only that a male white had a wreck and then he left
the scene.” (Id. at PageID 1627.)

App. 14
• “Lane pulled into the A & H Iron Works parking lot
and a group of people ran out to him yelling, ‘There
he is. Go get him. He slit his wrists.’ They were
referring to Edmond Studdard.” (Id. at PageID
1627.)
• “Studdard continued walking, and at times running,
northbound on Big Orange Road toward Macon
Road and away from Lane and Lane continued to
follow. There was a tall wooden fence to Studdard’s
right, on the east side of the road. The fence was
more than 4 feet tall, running north to south on the
east side of Big Orange Road.” (Id. at PageID 1630.)
• Lane made a call for assistance and “Sheriff’s
Deputies Erin Shepherd, Samuel Pair and Terry
Reed–all members of the Patrol Crime Response
Unit (“PCRU”)–responded.” (Id.)
• “Deputies Reed, Shepherd, and Pair wore
plainclothes, but were wearing black vests with the
yellow lettering ‘sheriff’ on the front and back in
bold print.” (Id. at PageID 1632.)
• “All deputies on the scene carried Sig Sauer .40
caliber service handguns.” (Id.)
• “Pair was in an unmarked truck and Shepherd was
his passenger.” “Reed was driving a Ford Fusion
car.” (Id.)
• “Reed knew that the call for assistance from Lane
‘started off as a hit-and-run call that came out. And
then it turned into an armed party’ call.” (Id.)
(quoting Reed Dep., ECF No. 89-4 p. 113.)

App. 15
• “Radio traffic reflected that an ‘individual that was
walking had a knife or an edged weapon in his
hand, he was walking, and the other officer on a
motor bike was behind him.’” (Id.) (quoting
Abdullah Dep., ECF No. 89-7 at p. 48.)
• “Radio traffic reflected that Studdard had cut his
wrists.” (Id. at 1633.)
• “Big Orange Road is an industrial complex with
various businesses throughout it, including A&H
Iron Works, Conway Heating and Air, a golf driving
range, and the Memphis Cheer Elite All-Stars
cheerleading training camp.” (Id.)
• “Pair and Shepherd were in a vehicle together, and
arrived basically simultaneously with Reed.” (Id.)
• “Shepherd told Pair as they were pulling up to ‘pull
in front [north] of him so we can try to stop his
forward movement.’” (Id. at PageID 1634) (quoting
Shepherd Depo, ECF No. 89-3 at p. 215.)
• “The officers parked their vehicles and got out in
the middle, toward the opposite side of the street.”
(Id.)
After officers exited their vehicles
• “The officers essentially boxed Studdard in with the
fence and their vehicles. The three deputies—Pair,
Shepherd, and Reed—got out into the southbound
lane, opposite Deputy Lane and Studdard.” (Id.)
• “Pair came around the back of his truck and started
approaching Studdard.” “When Shepherd got out of
the vehicle, she walked farther down the street.”

App. 16
“When Pair, Reed, and Shepherd arrived, Lane
threw his bike down, took off his helmet, grabbed
his weapon, and pointed it at Studdard.” (Id. at
PageID 1635.)
• “Shepherd was in the southbound lane ‘towards the
middle of the street.’” “Studdard was in the grassy
area on the east side of Big Orange Road.” (Id.)
• When the deputies came face to face with Studdard,
he had at least “some blood on him prior to being
shot.” (Id. at PageID 1636.)
• The grassy area between northbound Big Orange
Road to the wooden fence was at least 19 feet
across. (Id. at PageID 1644.)
• “Before Pair could pull his trigger, Reed and
Shepherd fired.” (Id. at PageIDs 1641-42.)
• “Paramedic Natalie Stewart was not on the scene
when Studdard was shot or when Studdard fell.
Paramedic Stewart does not know where Studdard
was standing when he was shot, nor does she know
if Studdard’s body was moved during medical aid
between the shooting and her arrival.” (Id.)
• “As soon as Studdard went down, Shepherd ran up
to him and reached down to touch him; Reed
stopped her and kicked the blade out of Studdard’s
hand first.” “The deputies then started to give
Studdard medical aid.” “Lane called for an
ambulance immediately and Shepherd used a
tampon to plug one of Studdard’s wounds.” (Id.)

App. 17
• “Pair ran to his truck and got a t-shirt and a towel
to stop the bleeding on Studdard’s wrists.” “The
Deputies also put pressure on the wounds to try to
stop the bleeding. They rendered aid until the
ambulance arrived.” (Id. at PageID 1645.)
• “Plaintiff alleges Mr. Studdard died in the hospital
on September 4, 2016.” (Id.)
C. Procedural Background
Edmond Studdard’s wife, Angela Studdard, filed the
instant lawsuit in state court as Edmond Studdard’s
next of kin, administrator ad litem, and personal
representative before it was removed to federal court
on July 21, 2017.1 (Notice of Removal, ECF No. 1.)
Plaintiff filed an Amended Complaint on November 13,
2017. (ECF No. 33.) Defendants filed their Answer to
the Amended Complaint on December 6, 2017. (ECF
No. 38.) Trial is set for March 11, 2019. (Order
Updating Trial Dates, ECF No. 128.)
Defendants Reed and Shepherd filed a Motion for
Summary Judgment on August 31, 2018. (ECF No. 89.)
That same day, Defendant Shelby County also filed a
Motion for Summary Judgment (ECF No. 90.) Plaintiff
filed a response to both summary judgment motions on
October 5, 2018. (ECF No. 115.) Reed and Shepherd
filed a reply on October 17, 2018 (ECF No. 123.) Shelby
County also filed a reply the same day. (ECF No. 122.)
Defendants filed supplemental authority for the

1

Throughout the order Edmond Studdard will be referred to as
“Studdard.” Angela Studdard will be referred to as “Plaintiff.”

App. 18
summary judgment motions on November 13, 2018.
(ECF No. 129.)
II.

LEGAL STANDARD

A party is entitled to summary judgment “if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a). “A
fact is ‘material’ for purposes of summary judgment if
proof of that fact would establish or refute an essential
element of the cause of action or defense.” Bruederle v.
Louisville Metro Gov’t, 687 F.3d 771, 776 (6th Cir.
2012).
“In considering a motion for summary judgment,
[the] court construes all reasonable inferences in favor
of the non-moving party.” Robertson v. Lucas, 753 F.3d
606, 614 (6th Cir. 2014) (citing Matsushita Elec. Indus.
Co. v. Zenith Radio Corp., 475 U.S. 574, 587 (1986)).
“The moving party bears the initial burden of
demonstrating the absence of any genuine issue of
material fact.” Mosholder v. Barnhardt, 679 F.3d 443,
448 (6th Cir. 2012) (citing Celotex Corp. v. Catrett, 477
U.S. 317, 323 (1986)). “Once the moving party satisfies
its initial burden, the burden shifts to the nonmoving
party to set forth specific facts showing a triable issue
of material fact.” Mosholder, 679 F.3d at 448-49; see
also Fed. R. Civ. P. 56(e); Matsushita, 475 U.S. at 587.
“When the non-moving party fails to make a sufficient
showing of an essential element of his case on which he
bears the burden of proof, the moving parties are
entitled to judgment as a matter of law and summary
judgment is proper.” Martinez v. Cracker Barrel Old
Country Store, Inc., 703 F.3d 911, 914 (6th Cir. 2013)

App. 19
(quoting Chapman v. UAW Local 1005, 670 F.3d 677,
680 (6th Cir. 2012) (en banc)) (internal quotation
marks omitted).
In order to “show that a fact is, or is not, genuinely
disputed,” a party must do so by “citing to particular
parts of materials in the record,” “showing that the
materials cited do not establish the absence or presence
of a genuine dispute,” or showing “that an adverse
party cannot produce admissible evidence to support
the fact.” Bruederle, 687 F.3d at 776 (alterations in
original) (quoting Fed. R. Civ. P. 56(c)(1)); see also
Mosholder, 679 F.3d at 448 (“To support its motion, the
moving party may show ‘that there is an absence of
evidence to support the nonmoving party’s case.’”
(quoting Celotex, 477 U.S. at 325)). “Credibility
determinations, the weighing of the evidence, and the
drawing of legitimate inferences from the facts are jury
functions, not those of a judge[.]” Martinez, 703 F.3d at
914 (alteration in original) (quoting Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 255 (1986)). “The
court need consider only the cited materials, but it may
consider other materials in the record.” Fed. R. Civ. P.
56(c)(3). “[T]he district court has no ‘duty to search the
entire record to establish that it is bereft of a genuine
issue of material fact.’” Pharos Capital Partners, L.P.
v. Deloitte & Touche, 535 Fed. Appx. 522, 523 (6th Cir.
2013) (per curiam) (quoting Tucker v. Tennessee, 539
F.3d 526, 531 (6th Cir. 2008), abrogation recognized by
Anderson v. City of Blue Ash, 798 F.3d 338 (6th Cir.
2015)).
The decisive “question is whether ‘the evidence
presents a sufficient disagreement to require

App. 20
submission to a [fact finder] or whether it is so
one-sided that one party must prevail as a matter of
law.’” Johnson v. Memphis Light Gas & Water Div.,
777 F.3d 838, 843 (6th Cir. 2015) (quoting Liberty
Lobby, 477 U.S. at 251-52). Summary judgment “‘shall
be entered’ against the non-moving party unless
affidavits or other evidence ‘set forth specific facts
showing that there is a genuine issue for trial.’”
Rachells v. Cingular Wireless Employee Servs., LLC,
No. 1:08CV02815, 2012 WL 3648835, at *2 (N.D. Ohio
Aug. 23, 2012) (quoting Lujan v. Nat’l Wildlife Fed’n,
497 U.S. 871, 884 (1990)). “[A] mere ‘scintilla’ of
evidence in support of the non-moving party’s position
is insufficient to defeat summary judgment; rather, the
non-moving party must present evidence upon which a
reasonable jury could find in her favor.” Tingle v.
Arbors at Hilliard, 692 F.3d 523, 529 (6th Cir. 2012)
(quoting Liberty Lobby, 477 U.S. at 251). “[I]n order to
withstand a motion for summary judgment, the party
opposing the motion must present “affirmative
evidence” to support his/her position.” Mitchell v.
Toledo Hosp., 964 F.2d 577, 584 (6th Cir. 1992) (citing
Liberty Lobby, 477 U.S. at 247-254; Street v. J.C.
Bradford & Co., 886 F.2d 1472, 1479 (6th Cir. 1989)).
“[C]onclusory assertions, unsupported by specific facts
made in affidavits opposing a motion for summary
judgment, are not sufficient to defeat a motion for
summary judgment.” Rachells, 2012 WL 3648835, at *2
(quoting Thomas v. Christ Hosp. and Med. Ctr., 328
F.3d 890, 894 (7th Cir. 2003)). Statements contained in
an affidavit that are “nothing more than rumors,
conclusory allegations and subjective beliefs” are
insufficient. See Mitchell, 964 F.2d at 584-85.

App. 21
III.

DISCUSSION
A. Shepherd and Reed’s Liability
1. Legal Standard

“[Q]ualified immunity protects government officials
‘from liability for civil damages insofar as their conduct
does not violate clearly established statutory or
constitutional rights of which a reasonable person
would have known.’” Pearson v. Callahan, 555 U.S.
223, 232 (2009) (quoting Harlow v. Fitzgerald, 457 U.S.
800, 818 (1982)). Qualified immunity applies unless “a
plaintiff is able to establish (1) the facts show a
violation of a constitutional right, and (2), the right at
issue was ‘clearly established when the event occurred
such that a reasonable officer would have known that
his conduct violated’ the plaintiff’s constitutional
right.” Foster v. Patrick, 806 F.3d 883, 886 (6th Cir.
2015) (quoting Martin v. City of Broadview Heights,
721 F.3d 951, 957) (internal citation and quotation
marks omitted).
To determine whether qualified immunity applies,
a court must decide (1) “whether the facts that a
plaintiff has alleged or shown make out a violation of
a constitutional right,” and (2) “whether the right at
issue was clearly established at the time of defendant’s
alleged misconduct.” Pearson, 555 U.S. at 232 (citing
Saucier v. Katz, 533 U.S. 194, 201 (2001)). The court
need not answer the questions in any particular order,
but qualified immunity applies unless the answer to
both questions is “yes.” Id. at 231-32.
Claims of excessive force are evaluated under the
Fourth Amendment’s objective reasonableness

App. 22
standard: “the question is whether the officers’ actions
are objectively reasonable in light of the facts and
circumstances confronting them[.]” Graham v. Connor,
490 U.S. 386, 395, 397 (1989) (internal citation and
quotation marks omitted). The “proper application” of
the Fourth Amendment’s reasonableness standard
“requires careful attention to the facts and
circumstances of each particular case, including the
severity of the crime at issue, whether the suspect
poses an immediate threat to the safety of the officers
or others, and whether he is actively resisting arrest or
attempting to evade arrest by flight.” Graham, 490 U.S.
at 396 (citing Tennessee v. Garner, 471 U.S. 1, 8-9
(1985)). “To determine the constitutionality of a seizure
‘we must balance the nature and quality of the
intrusion on the individual’s Fourth Amendment
interests against the importance of the governmental
interests alleged to justify the intrusion.’” Garner, 471
U.S. at 8 (quoting United States v. Place, 462 U.S. 696,
703 (1983)).
“[T]here can be no question that apprehension by
the use of deadly force is a seizure subject to the
reasonableness requirement of the Fourth
Amendment.” Garner, 471 U.S. at 7. But
“notwithstanding probable cause to seize a suspect, an
officer may not always do so by killing him. The
intrusiveness of a seizure by means of deadly force is
unmatched.” Id. at 9. Accordingly, “[w]here the suspect
poses no immediate threat to the officer and no threat
to others, the harm resulting from failing to apprehend
him does not justify the use of deadly force to do so.” Id.
at 11.

App. 23
“‘[T]he reasonableness of officer conduct in an
excessive-force claim is a question of law that a court
may decide,’ but only if ‘all material facts are
undisputed.’” Oliver v. Buckberry, 687 Fed. Appx. 480,
484 (6th Cir. 2017) (quoting Stricker v. Twp. of
Cambridge, 710 F.3d 350, 364 (6th Cir. 2013)).
2. Analysis of Factual Disputes
The three main factual disputes are: (1) what type
of weapon Studdard was holding, (2) whether Studdard
moved closer to Reed and Shepherd before he was shot,
and (3) how far away Reed and Shepherd were from
Studdard. As explained below, whether Studdard was
holding a knife or box cutter does not affect the
qualified immunity analysis. Whether Studdard was
moving and how far away from Reed and Shepherd he
was, on the other hand, do affect the qualified
immunity analysis.
Weapon held
Plaintiff disputes that Studdard ever held a “knife”
on July 7, 2016 and argue no “knife was ever recovered
on or near the scene.” (Pl.’s Resp. to Def.’s Statement of
Undisputed Facts, ECF No. 115-2 at PageIDs 1620-21.)
Plaintiff asserts the Tennessee Bureau of Investigation
(“TBI”) “recovered a box cutter handle without a razor
blade but no witnesses in this cause can identify said
item as being the object that Edmond Studdard
allegedly held in his hand at the time of the shooting.”
(Id.) The handle is shown in Exhibit 2 to Lane’s
deposition (ECF No. 96-5 at PageID 1198) and in the
crime scene photo attached to Lanes deposition (ECF
No. 96-5 at PageID 1215.) There is no blade visible in

App. 24
either picture. The TBI investigation recovered a
separate razor blade from a sink at 1175 Big Orange
Road. (TBI evidence log, ECF No. 132-1 at PageID
2076.)
Defendants argue Studdard was “holding what
appeared to be a knife, waving the knife and refusing
to drop it” before he was shot. (Def. Memo in Support
of Sum. J., ECF No. 89-1 at PageID 426.) Deputy Lane
testified that as he was following Studdard down Big
Orange Road, Studdard “reache[d] his hand back,
show[ed] me a knife.” (Lane Depo., ECF No. 96-1 at p.
74.) Once Lane “realized he had the knife” and that
“both his wrists were bloody, that’s when [Lane] backed
up and started calling all the information in.” (Id. at
p. 82.) Lane radioed to dispatch that Studdard was “not
resisting, just walking around with knife in hand.” (Id.
at p. 83.) Lane thought the blade was about two to five
inches long and the entire weapon appeared to be six to
eight inches long. (Id. at pp. 78-79.) Radio traffic reflect
that the “individual that was walking had a knife or an
edged weapon in his hand.” (Abdullah Depo., ECF No.
89-7 at p. 48.)
Defendants also had their expert, Richard Lichten,
evaluate the type of weapon Studdard had when he
was shot. Based on the photos of the recovered weapon,
Lichten determined it was not a box cutter but a
“Husky Folding Lock-Back Utility Knife” with
replaceable blades. (Lichten Report, ECF No. 89-10 at
PageID 748.) When a blade is inserted into the knife
handle “the cutting surface of the blade is about 1.2
inches in length.” (Id.) Lichten concluded that “based
on the design of this knife it was impossible for a

App. 25
reasonable deputy to have been able to visually
determine if the 1.2 inch blade was in the knife or not
at a distance and when the knife is moving.” (Id. at
PageID 749.) He further concluded that “[i]t does not
make any difference at all if the weapon was a large
bladed knife, such as a hunting knife, or a very small
bladed knife like a box cutter.” (Id. at PageID 748.)
Either one can be used to “kill and maim” at a short
distance. (Id.)
For a qualified immunity analysis, the general type
of weapon is important. The specific name a party calls
the weapon does not affect the analysis. Neither party
disputes Studdard’s wrists were cut or that radio traffic
reflected that Studdard was walking with a knife or an
edged weapon in his hand. (Pl.’s Resp. to Def.’s
Statement of Undisputed Facts, ECF No. 115-2 at
PageIDs 1632-33.)
Whether Studdard moved towards Reed and Shepherd
Defendants Reed and Shepherd argue that
Studdard was walking towards them with the weapon
in his hand. (Mot. for Sum. J., ECF No. 89-1 at
PageIDs 431-32.) Shepherd testified that “he started
walking towards [Deputy Lane].” (Shepherd Depo.,
ECF No. 89-3 at p. 135 l. 24-25.) Shepherd stated that
Studdard started walking towards Shepherd and Reed:
Q. At some point, did [Studdard] turn around
and come back to where he was?
A. He turned around and – came back, started
walking towards Deputy Reed and I.

App. 26
Q. Okay. How far – okay. And how far did he
walk toward you and Deputy Reed?
A. We let him get about seven to 10 feet before
we opened fire.
(Shepherd Depo., ECF No. 89-3 at p. 150 l. 17-24.)
Reed and Shepherd argue that Lane saw Studdard
swaying but was not sure if he was moving. (Reed and
Shepherd Reply to Mot. for Sum. J., ECF No. 123 at
PageID 1671.) In Lane’s July 8, 2016 statement to the
Shelby County Sheriff’s Office Bureau of Professional
Standards and Integrity, Lane stated:
Lane: . . . Well what also what I noticed when
his neck when he had his knife up to his neck
well I was zoned in on that knife. That was all I
was looking at. Tunnel vision I was looking
straight at that knife.
Little: Um Hmm.
Lane: Well when he was doing that he was I
don’t know if he was walking I don’t know but
his upper I know his upper shoulders I know his
upper shoulders were moving I don’t know if he
was pacing or what he was doing but I just saw
that knife and then as soon as it started going
forward on his neck that’s when the shots were
fired and he went straight to the ground.
(BPSI file, ECF No. 131-1 at PageID 1775.)
Peterson: Yes when he um you said his back was
to the fence so as he [was] walking[,] did he walk
towards y’all while he had the knife up?

App. 27
Lane: Not that I saw.
Peterson: You don’t remember?
Lane: His back was to the fence and I was
looking up at his neck when he brought it up
here.
Peterson: You didn’t know if he was walking or
not?
Lane: I know his shoulders were moving but I
was looking to the upper part of his body I didn’t
I didn’t.
Lane: No, Ma’am.
Peterson: You had tunnel vision?
Lane: Right.
(Id. at PageID 1776.)
Plaintiff argues Studdard was not moving towards
the deputies before he was shot. (Response to Summary
Judgment, ECF No. 115-1 at PageID 1608.) Deputy
Lane’s February 21, 2018 deposition testimony
supports this argument:
Q. And at any time did Mr. Studdard ever walk
toward anybody with a knife or whatever he had
in his hand?
A. Not that I saw. No, sir.
Q. Right. On the date after the shooting, the
question was asked of you by the Detective
Peterson. “Yes. You said his back was to the

App. 28
fence, so he was walking. Did he walk towards
y’all while he had the knife up?” And Your
answer was, “Not that I saw.” Right?
A. No, sir. Not that I saw.
Q. He never walked toward anybody while he
had the knife to his throat, did he?
A. Not that I saw. No, sir.
Q. And you were there. You could see from
where you were at, right?
A. (Nodding head affirmatively.)
Q. You got – you have good vision, nothing
blocking your view, was it?
A. No, sir.
Q. And that’s the truth, isn’t it?
A. Yes, sir.
(Lane Depo., ECF No. 96-3 at p. 188 l. 14-p. 189 l. 10.)
Lane’s deposition testimony clarifies that he saw
Studdard swaying but not advancing towards anyone
as Reed and Shepherd claim:
Q. And again, you don’t know why Deputy
Shepherd or Deputy Reed fired their weapons?
A. I can’t speak for them. At the time the shots
were fired, there was – the situation was
starting to become heightened, and he was
moving. I can’t – I don’t remember if he was

App. 29
walking, or if he was swaying. I just – he was
moving. That’s all I can say.
Q. You’re changing your testimony from –
A. No, sir. That’s how it is, is he was moving.
Q. I want you to stand up and show the
videographer how he was moving. Was he
moving toward people or swaying?
A. He was swaying like this (demonstrating).
Q. Right.
A. That’s what I envisioned him doing.
Q. Okay. Was he advancing toward anybody?
A. Not that I saw. No, sir.
(Lane Depo., ECF No. 96-4 at p. 260 l. 25-p. 261 l. 17.)
Lane’s answers during his deposition indicate that
he was not changing his prior testimony. Lane was
clarifying what movement he saw from his
unobstructed view of Studdard. According to Lane, the
movement did not involve Studdard advancing towards
anyone.
Reed and Shepherd argue there is no genuine
dispute of material fact that Studdard walked toward
the deputies. (Reply, ECF No. 123 at PageID 1669.)
Lane’s deposition testimony has provided evidence
that, if believed, shows Studdard was not moving
towards any of the officers and was instead swaying in
place before he was shot. Defendants’ claim that
“especially in light of the testimony of all three other

App. 30
deputies who saw Studdard walking” there is no
genuine dispute of material fact requires the Court to
weigh the credibility of the witnesses. (Id. at PageID
1674.) It is not proper for the Court to weigh evidence
when ruling on a summary judgment motion. Martinez,
703 F.3d at 914. Whether Studdard was walking
towards the officers or swaying and moving his arms
while standing in place is a factual dispute that will
affect the qualified immunity analysis.
How far Reed and Shepherd were from Studdard
Plaintiff argues “Studdard would have been at least
34 feet away from the officers at the moment of the
shooting.” (Response to Mot. for Sum. J., ECF No.
115-1 at PageID 1612.) Based on the video footage of
the area of where Studdard was shot, from east to west
there was: a wooden fence, a grassy area from the fence
to the curb, the northbound lane of Big Orange Road,
two solid yellow lines, and the southbound lane of Big
Orange Road. (IR 49 Crime Scene Videos at 2:13; IR 46
Crime Scene Diagram.)
Lane testified that Studdard “dropped immediately”
to the ground after he was shot. (Lane Depo., ECF No.
96-2 at p. 135 l. 14-16.) Lane recalls that Studdard “fell
on his back” and that “he was parallel to the fence.” (Id.
at p. 136 l. 11-24.) Lane does not remember “if we
moved him or what, but we were trying to administer
aid.” (Id.)
Paramedic Natalie Stewart was dispatched to Big
Orange Road to respond to the shooting. (Stewart Dec.,
ECF No. 95 at ¶ 3.) Stewart asserts that “The distance
from the curb on the eastern side of Northbound Big

App. 31
Orange Road across the grassy area to the place in the
grassy area where Edmond Studdard’s body was
located and lying when [she] arrived to administer
emergency medical first aid is over ten feet.” (Id. at
¶ 7.)
Jason Cunningham works for a business located on
Big Orange Road. (Cunningham Dec., ECF No. 94 at
¶ 3.) Cunningham was working almost directly across
the street from the shooting the day Studdard was
shot. (Id. at ¶ 5.) Cunningham traveled on Big Orange
Road on a regular basis and had personal knowledge of
the width of Big Orange Road and the immediate
surrounding area. (Id. at ¶¶ 3, 7.) He asserts that “The
distance from the curb on the eastern side of
Northbound Big Orange Road to the first yellow solid
line in the middle of Big Orange Road is greater than
24 feet.” (Id. at ¶ 8.)
When they arrived, Pair, Shepherd, and Reed got
out into the southbound lane, opposite Lane and
Studdard. (Pl’s Response to Def’s Undisputed Facts,
ECF No. 115-2 at PageID 1634.) Because Lane testified
Studdard “dropped immediately” when he was shot and
because Lane testified he does not remember anyone
moving Studdard’s body, a jury could reasonably
believe he was shot where his body was found.
According to paramedic Stewart, that is at least ten
feet from the eastern curb. (Stewart Dec., ECF No. 95
at ¶ 7.)
Since Shepherd and Reed were in the southbound
lane they must have been over 24 feet from the curb at
the time of the shooting if Cunningham’s testimony
about the distance of Big Orange Road is believed.

App. 32
Cunningham asserted that the distance from the
eastern curb to the “first yellow solid line in the middle
of Big Orange Road is greater than 24 feet.”
(Cunningham Dec., ECF No. 94 at ¶ 8) (emphasis
added.) Shepherd and Reed must have been past the
second yellow solid line to be in the southbound lane.
(See IR Crime Scene Videos at 2:13.) This would be
further than 24 feet from the eastern curb. If, as
Stewart and Lane’s testimony suggests, Studdard was
shot ten feet away from the curb, then Shepherd and
Reed would be a total of at least 34 feet away from
Studdard when they opened fire.
Reed and Shepherd argue that Studdard was
walking towards them and they “let him get about
seven to [ten] feet before we opened fire.” (Shepherd
Depo., ECF No. 89-3 at p. 150 l. 23-24.) Defendants’
expert, Richard Lichten also relied on Shepherd’s
testimony to analyze the shooting if Studdard was
“about 7 to 10 feet away” when he was shot. (Lichten
Report, ECF No. 89-10 at p. 10.)
Plaintiff’s cited testimony creates a genuine issue of
how far away Studdard was when he was shot.
Plaintiff provides evidence which, if believed, places
Studdard at least 34 feet away from Reed and
Shepherd when he was shot. Because there is specific
evidence indicating 34 feet (paramedic Stewart’s 10
feet, Cunningham’s 24 feet, and Reed and Shepherd
standing on the southbound side of the road) and
because the Court must interpret the record in the
light most favorable to Plaintiff, that is the distance
that will be used for the qualified immunity analysis.

App. 33
Reframed question for qualified immunity analysis
Based on resolving factual issues in dispute in favor
of the non-moving party for summary judgment, the
questions for the qualified immunity analysis are:
Given that Studdard was 34 feet away from
Shepherd and Reed, was not moving towards officers,
and was holding a bladed weapon, did he have a
constitutional right to not be shot? If so, was that right
clearly established so that a reasonable officer would
understand it?
3. Application of Factual Analysis to
Qualified Immunity Framework
To determine whether qualified immunity applies,
a court must decide (1) “whether the facts that a
plaintiff has alleged or shown make out a violation of
a constitutional right,” and (2) “whether the right at
issue was clearly established at the time of defendant’s
alleged misconduct.” Pearson, 555 U.S. at 232 (citing
Saucier v. Katz, 533 U.S. 194, 201 (2001)).
Whether the facts Plaintiff alleged make out a violation
of a constitutional right
Plaintiff argues that “based upon the totality of the
circumstances known to Reed and Shepherd at the
time of the shooting, the use of deadly force was
objectively unreasonable and violated the Fourth
Amendment.” (Mot. for Sum. J., ECF No. 115-1 at
PageID 1616.) While the test of reasonableness under
the Fourth Amendment is “not capable of precise
definition or mechanical application,” Bell v. Wolfish,
441 U.S. 520, 559 (1979), its “proper application

App. 34
requires careful attention to the facts and
circumstances of each particular case, including the
severity of the crime at issue, whether the suspect
poses an immediate threat to the safety of the officers
or others, and whether he is actively resisting arrest or
attempting to evade arrest by flight.” Graham, 490 U.S.
at 396 (1989). Plaintiff argues “Studdard was never
charged with any crime. Further, Eddie Studdard was
not actively resisting arrest.” (Response to Mot. for
Sum. J., ECF No. 115-1 at PageID 1614.) Plaintiff
relies on Lane’s testimony for support:
Q. All right. And Deputy, I’m going to ask you
just hopefully a few short questions. And they all
go to what you knew at the time the shots were
fired in which Mr. Edmond Studdard was shot.
Okay? Just at that moment the shots were fired.
Was he a fleeing violent felon to your
understanding at that point?
A. No, sir.
Q. Was he threatening imminent or serious
bodily injury to anyone aside from himself at the
time he was shot?
A. I did not view him as a threat.
Q. Okay. To your knowledge, was there anything
blocking the view of Deputy Shepherd in seeing
Edmond Studdard from what you saw?
A. No, sir. I can’t say.

App. 35
Q. There was open space, wasn’t there?
A. Right.
(Lane Depo., ECF No. 96-4 at p. 253 l. 20-p. 254 l. 12.)
Plaintiff’s expert, Jeffrey Noble, concluded that
Studdard “was not an immediate threat to either
Deputy Shepherd or Deputy Reed.” (Noble Report, ECF
No. 99 at ¶ 33.) He concluded that “the use of deadly
[force] would not be objectively reasonable or consistent
with generally accepted police practices.” (Id.)
Defendants’ expert, Richard Lichten, evaluated
Noble’s report and the available evidence. (Lichten
Report, ECF No. 89-10 at PageID 783.) He agreed with
Noble that at 34 feet “if the decedent was in fact
standing still and had not made any move at all toward
the shooter deputies, the shooting would be
unjustified.” (Id. at ¶ 42.1.)
Q. What about if Mr. Studdard was 25 feet away
from Deputy Shepherd and Deputy Reed at the
time he was shot and he was not moving
towards them at the time he was shot, would it,
again, be a violation of Shelby County Sheriff’s
Department policies and procedures for those
two officers to shoot Mr. Studdard?
A. If under your hypothetical he was standing
still and not moving towards the deputies, they
would not have been justified in the shooting.
(Lichten Depo., ECF No. 98 at p. 136 l. 1-9.)
Lichten opines that “Professionally trained,
reasonable deputies are aware that a suspect can cover

App. 36
a distance of 21 feet very quickly. The concept of the so
called 21-foot rule has been around a long time.”
(Lichten Report, ECF No. 89-10 at ¶ 37.) He explained
that “an average suspect can cover a distance of 21 feet
in about 1.5 seconds, which is the time it takes most
officers to draw and fire.” (Id. at ¶ 38.)
Shepherd testified that she was “trained on a 25
foot rule in relation to bladed weapons. That someone
within the 25 feet can get to us and injure us before we
can draw out weapons and pull the trigger. And so
we’re not supposed to – we’re trained not to let
someone in that 25 foot threshold who has a weapon,
rather it’s to their throat, out at us, or anything like
that.” (Shepherd Depo., ECF No. 91-1 at p. 173
l. 12-19.) When Shepherd got out of her truck she drew
her gun. (Id. at p. 122 l. 20-22.)
Since the 21- or 25-foot rule of thumb applies based
on the time it would take to both draw and fire a gun,
if a gun is already drawn it would take less time to fire
it. The further away the suspect is the more time it
would take the suspect to reach an officer. This
suggests that if Reed and Shepherd already had their
guns drawn and Studdard was 34 feet away there
would be even less reason for either of them to think
Studdard posed an immediate threat.
Noble’s conclusion, with which Defendants’ expert
agrees, is that if Studdard was shot from 34 (or as little
as 25) feet and he was not moving towards or
threatening the deputies, the shooting was unjustified.
When the record is viewed in the light most favorable
to Plaintiff, Studdard was not a fleeing felon, was not
resisting arrest, and was not posing an immediate

App. 37
threat to the safety of the officers or others. The
Graham analysis shows that Plaintiff relies on
evidence which, if believed, shows that Reed and
Shepherd’s use of deadly force was objectively
unreasonable and violated the Fourth Amendment.
Whether the right at issue was clearly established
The U.S. Supreme Court elaborated on the clearly
established right element of the qualified immunity
analysis in Kisela v. Hughes, 138 S. Ct. 1148 (2018)
(per curiam). An officer “cannot be said to have violated
a clearly established right unless the right’s contours
were sufficiently definite that any reasonable official in
the defendant’s shoes would have understood that he
was violating it.” Id. at 1153 (citing Plumhoff v.
Rickard, 134 S.Ct. 2012, 2023 (2014)).
“[S]pecificity is especially important in the
Fourth Amendment context, where the Court
has recognized that it is sometimes difficult for
an officer to determine how the relevant legal
doctrine, here excessive force, will apply to the
factual situation the officer confronts.” Mullenix
v. Luna, 136 S. Ct. 305 (2015) (per curiam)
(internal quotation marks omitted). Use of
excessive force is an area of the law “in which
the result depends very much on the facts of
each case,” and thus police officers are entitled
to qualified immunity unless existing precedent
“squarely governs” the specific facts at issue. Id.,
at 309 (internal quotation marks omitted and
emphasis deleted). Precedent involving similar
facts can help move a case beyond the otherwise
“hazy border between excessive and acceptable

App. 38
force” and thereby provide an officer notice that
a specific use of force is unlawful. Id., 312
(internal quotation marks omitted).
Kisela, 138 S. Ct. at 1152–53 (2018).
Plaintiff’s caselaw
Plaintiff’s argument starts with Lopez v. City of
Cleveland, 625 F. App’x 742 (6th Cir. 2015) (reversing
the district court that granted summary judgment for
qualified immunity). In Lopez the Sixth Circuit denied
qualified immunity to an officer who shot a suspect
holding a knife but not moving towards or attacking
anyone. Id. at 743. The district court granted summary
judgment after finding there was no constitutional
violation. Id. at 747 n.2. The district court “did not
analyze the ‘clearly established’ prong of the
qualified-immunity analysis, and Defendants [] made
no argument regarding that prong on appeal.” Id. The
Sixth Circuit noted “that the law was clearly
established that officers could not use deadly force
unless they had probable cause to believe that an
individual posed a serious risk of harm to officers or
others.” Id. The Lopez court specifically referred to
Ciminillo v. Streicher, 434 F.3d 461, 468 (6th Cir. 2006)
to show that this right had been clearly established by
the Sixth Circuit. Id.
In Ciminillo, Officer Knight shot Ciminillo with a
beanbag propellant at point blank range as he
attempted to leave the scene of a riot. Ciminillo, 434
F.3d at 463. The Sixth Circuit reasoned that “It was
clearly established law in this Circuit at the time of the
underlying events that individuals have a right not to

App. 39
be shot unless they are perceived as posing a threat to
officers or others.” Id. at 468. The Ciminillo court
analogized the case to those where pepper spray was
used and where beanbag propellants were used against
individuals who posed no immediate risk to officer
safety to conclude that “it was clearly established that
shooting Ciminillo with a beanbag was objectively
unreasonable.” Id. at 469.
As found above, the Court finds that Reed and
Shepherd may have violated Studdard’s constitutional
“right not to be shot unless [he was] perceived as
posing a threat to officers or others.” Id. at 468.
Determining whether that is a clearly established right
in this case requires the Court to compare the present
case to cases with individuals holding a sharp object
but not threatening police.
In Robinson v. City of Memphis, this Court applied
the clearly established right not to be shot where he or
she poses no threat to a pursuing police officer to deny
Officer Lucas’s motion for summary judgment as to a
Fourth Amendment excessive force claim. 340 F. Supp.
2d 864, 868 (2004). Lucas “battered down the door to
the bedroom where the decedent was located in order
to execute the search warrant.” Id. The decedent was
“naked and unarmed” when he reached for a shirt and
was shot. Id. The Court explained that “A reasonable
officer would know that a naked unarmed man
standing at the back of a room poses no threat to the
officer and should not be shot.” Id. at 869. Officer Lucas
claimed “that the decedent was near the door and
approaching him with a box cutter at the time of the
shooting.” Id. at 868. The medical examiner testified

App. 40
that “if the decedent had been approaching Officer
Lucas at the door, it would not have been possible for
the decedent to end up crouched in the back of the
room” where he was. Id. at 868-69.
Because Robinson is a district court opinion, it does
not directly show what the Sixth Circuit has clearly
established. It does, however, demonstrate how courts
in the Sixth Circuit have applied the clearly
established right “not to be shot where he or she poses
no threat to a pursuing police officer.” Id. at 868 (citing
Russo v. City of Cincinnati, 953 F.2d 1036, 1045 (6th
Cir.1992)). That is the same right that applies in this
case.
In Russo the decedent, Bubenhofer, was a paranoid
schizophrenic who was shot by police officers after they
attempted to take him back to the Rollman Psychiatric
Institute (“RPI”). (Russo, 953 F.2d at 1039.) Officers
were told Bubenhofer was “a walk-away from RPI who
was suicidal, homicidal, and a hazard to police.” Id.
(internal quotes omitted). Bubenhofer was alone in his
brother’s apartment and officers were told that
Bubenhofer “did not have a gun.” Id. at 1040. Three
officers were on the landing outside the apartment. Id.
Bubenhofer “threatened to kill anyone who entered the
apartment.” Id. Officers were told Bubenhofer had two
butcher knives on a table in the apartment. Id.
Bubenhofer eventually opened the door “holding a knife
in each hand.” Id. Officer Sizemore fired a Taser dart
at Bubenhofer, who recovered and rushed towards that
officer, both knives pointed at him. Id. Two other
officers “fired their revolvers several times at
Bubenhofer, who lurched into Sizemore and then fell

App. 41
down six or seven steps to a small landing by the front
door of the building.” Id.
After falling Bubenhofer still had one knife in his
hand. Id. Officers repeatedly asked Bubenhofer to drop
the knife. Id. According to defendants, Bubenhofer
managed to get up, was Tasered twice more, then
charged up the steps at the officers, “knife in hand.” Id.
at 1041. Two officers fired their revolvers several more
times. Id. Officers claim Bubenhofer got up a second
time and “again stood up and began to come up the
stairs, knife in hand.” Id. At that point all three officers
fired at Bubenhofer. Id. Plaintiffs denied that
Bubenhofer ever stood up or charged towards the
officers and relied on testimony of a neighbor who
witnessed some of the incident from his house through
a window onto the stairway. Id. Bubenhofer was shot
a total of twenty-two times by the three officers. Id. at
1045.
The district court in Russo granted summary
judgment to two of the shooting officers on excessive
force claims, finding their use of firearms justified. Id.
at 1041. The Sixth Circuit relied on the “clearly
established precedent” that a person has “a right not to
be shot unless he [is] perceived to pose a threat to the
pursuing officers or others” to reverse the district
court’s grant of summary judgment with respect to the
use of deadly force. Id. at 1045. The Sixth Circuit
reasoned that “plaintiffs raise a genuine issue of fact as
to whether, in the second and third round of discharges
of the officers’ revolvers, the officers may have shot
Bubenhofer even though he posed no serious threat of
physical harm.” Id. The record also suggested that

App. 42
“some ten to twelve minutes elapsed between the
second and third series of shots, during which time
Bubenhofer apparently dropped his knife.” Id. Given
that record, the Sixth Circuit “believe[d] that a
reasonable jury might conclude that the officers’
repeated use of their revolvers violated this court’s
clearly established precedent on the use of deadly
force.” Id.
Here, like in Russo, both decedents held what
appeared to be a bladed weapon. Officers asked both
decedents numerous time to drop the knife. Both
decedents showed signs of having mental health issues.
Unlike Bubenhofer, Studdard never threatened to
harm anyone but himself. According to Lane, after
Shepherd and Reed arrived at the scene Studdard had
not threatened anybody other than himself. (Lane
Depo., ECF No. 96-3 at p. 177 l. 2-4.) Bubenhofer
lunged at the officers at least once, but it is disputed
whether Studdard ever started walking towards the
officers. While Bubenhofer was only “six or seven steps”
below the officers, there is evidence that Studdard was
34 feet away. Russo, 953 F.2d at 1040. Bubenhofer was
shot at three different times for a total of twenty-two
shots. Five shots were fired at Studdard in at a single
moment.
Comparing Russo to this case, Bubenhofer was more
of a threat to officers than Studdard was. Bubenhofer
was closer than Studdard, had previously tried to lunge
at the officers, and threatened them numerous times.
Even though officers shot twenty-two times in Russo,
Bubenhofer was arguably still a threat if, as the
officers claim, he was able to get back up and continue

App. 43
lunging towards the officers. The Sixth Circuit’s
application of the clearly established right not to be
shot unless perceived to be a threat to officers or others
applies with greater force in the instant case because,
viewing the evidence in the light most favorable to the
Plaintiff, Studdard posed less of a threat to officers
than Bubenhofer. Russo strongly supports that there is
a clearly established right that squarely governs the
facts at issue in this case. Kisela, 138 S. Ct. at 1152–53.
Cases from other Circuit Courts of Appeal also
support this proposition. The Tenth Circuit in Tenorio
v. Pitzer affirmed the district court’s denial of summary
judgment for qualified immunity related to excessive
force by analyzing the distance and aggressiveness a
knife-holding suspect was from the shooting officer. 802
F.3d 1160, 1166 (10th Cir. 2015). In Tenorio, Officer
Pitzer responded to a call that Tenorio was intoxicated
and holding a knife to his own throat. Id. at 1161-62.
Pitzer entered Tenorio’s 14 feet by 16 feet living room
through the front door. Id. at 1162. Tenorio “walked
forward into the living [room] at an average speed”
carrying a knife loosely in his right hand, his arm
hanging by his side. Id. at 1163. Pitzer saw the knife
and yelled for Tenorio to put it down. Id. After Tenorio
was “about two and one-half steps into the living
room,” Pitzer shot him. Id. The district court relied in
part on the facts that “Tenorio made no hostile motions
toward the officers but was merely ‘holding a small
kitchen knife loosely by his thigh,’ made no threatening
gestures toward anyone, was shot before he was within
striking distance of Pitzer, and that, for all Pitzer
knew, Tenorio ‘had threatened only himself and was
not acting or speaking hostilely at the time of the

App. 44
shooting.’” Id. at 1164-65. The Tenth Circuit agreed
with the district court’s analysis noting that Tenorio
“was not charging Pitzer,” he “had merely taken three
steps toward the officer,” and was not within striking
distance when he was shot. Id. at 1166.
While the Tenth Circuit is only persuasive and not
controlling as to what clearly established law in the
Sixth Circuit is, the facts of Tenorio are a useful
comparison for this case. Unlike Studdard, there is no
dispute that Tenorio was walking towards Pitzer. Like
Studdard, there was no indication that Tenorio
threatened to harm anyone other than himself and
Tenorio made no hostile motions toward the officers.
Tenorio supports Plaintiff’s argument that shooting
Studdard from 34 feet when he was not approaching or
threatening Shepherd or Reed violates Studdard’s
clearly established right not to be shot unless perceived
to be a threat to officers or others.
The Sixth Circuit has relied on other Circuits’
rulings on qualified immunity to establish what an
officer would have been on notice of as unreasonable
conduct that violates clearly established rights. In
Ciminillo the Sixth Circuit relied on a Ninth Circuit
case2 where officers also used a beanbag propellant
against an unarmed man. 434 F.3d at 469. The Sixth
Circuit determined that officer Knight was “on notice
that it is unreasonable to use beanbag propellants
against individuals who pose no immediate risk to
officer safety” because of Ninth Circuit caselaw. Id.

2

The Ninth Circuit case was Deorle v. Rutherford, 272 F.3d 1272
(9th Cir. 2001).

App. 45
Similarly, the Sixth Circuit can rely on the Tenth
Circuit’s caselaw in Tenorio to establish what notice
Shepherd and Reed had in this case. Tenorio
establishes it is unreasonable for an officer to shoot
someone less than 16 feet away who has not threatened
an officer even if that person has a bladed weapon and
is walking forward.
Defendants’ caselaw
Defendants direct the Court to Bouggess v.
Mattingly 482 F.3d 886 (6th Cir. 2007) to support their
argument that for “distance in particular, the Sixth
Circuit has not established precedent that squarely
governs the distance a knife-wielding suspect must
breach in order to make a shooting per se reasonable or
unreasonable.” (Reed and Shepherd Mot. for Sum. J.,
ECF No. 89-1 at PageID 443.) In Bouggess Officer
Mattingly relied on several cases from the Sixth Circuit
where, with one exception, the Sixth Circuit “either
reversed the denial of qualified immunity or affirmed
the grant of qualified immunity.” 482 F.3d at 892. In
each case, “the suspect in question was both known by
the police to possess a weapon and had indicated an
intent to use that weapon against the police or others.”
Id. Defendants incorrectly claim that the cases “shared
only two components” listed above. Bouggess does not
state that those are the only two components that are
similar between the cases Mattingly cited.
As to the two components identified, Defendants
argue “a deputy relying on that precedent could
reasonably believe that those two criteria were
sufficient.” (Reed and Shepherd Mot. for Sum. J., ECF
No. 89-1 at PageID 443.) Even if a deputy thought

App. 46
those two components were sufficient for qualified
immunity, they are not both present in this case.
Studdard had a bladed weapon when he was shot, but
the deputies did not have an indication that Studdard
intended to use that weapon against the police or
others. Defendants made no argument and the record
does not show that Studdard verbally threatened police
or others. Moreover, there is evidence that Studdard
was not moving towards either the officers or others.
Without evidence of threatening words or movement,
Reed and Shepherd could not reasonably believe that
Studdard, 34 feet away, intended to use the weapon
against the officers or others. Defendants have not
offered any support that an officer could reasonably
believe an individual intended to use a weapon against
the police or others absent threatening words or
actions.
Defendants argue that Sixth Circuit opinions do not
“add any more clarity to the precise distance (if one can
even be said to exist) at which an officer’s use of force
against a knife-wielding suspect is unreasonable.”
(Reed and Shepherd Mot. for Sum. J., ECF No. 89-1 at
PageID 443.) A precise distance is not necessary to
meet the requirements of Kisela if it is clear based on
existing caselaw that an officer would be on notice that
her action would violate clearly established rights. The
specificity Kisela requires is met by the substantially
similar factual scenarios in Russo and Tenorio.
Defendants’ argument suggests an individual in
Studdard’s position could have been shot from
distances well beyond 34 feet and the law would not
meet the specificity requirement. While the Sixth
Circuit may not have drawn a bright line, in the

App. 47
instant case there is no question that the facts asserted
by the Plaintiff, and as to which proof has been
submitted, places the individual Defendants well
outside any reasonably conceivable zone of danger.
Defendants also direct the Court to Chappell v. City
Of Cleveland, 585 F.3d 901 (6th Cir. 2009), which
Defendants argue “provides a somewhat closer set of
facts that a reasonable officer could have relied on.”
(Reed and Shepherd Mot. for Sum. J., ECF No. 89-1 at
PageID 444.) In Chappell officers entered a fifteen-year
old boy’s bedroom while conducting a protective sweep
of the home. 585 F.3d at 903. Officers encountered a
male suspect, McCloud, hiding in a bedroom closet. Id.
“When they ordered him to come out and show his
hands, the suspect came toward the officers with a
knife upheld. When he ignored their commands to drop
the knife and continued to move toward the officers in
close quarters, they opened fire, killing him instantly.”
Id. The distance between McCloud and the Detectives
was approximately five to seven feet and a mattress
was lying on the floor between the closet and the
Detectives. Id. at 910. The Sixth Circuit reasoned that
because the mattress was lying flat on the floor and did
not pose much of a barrier it would have “posed little
impediment to a knife-wielding assailant of McCloud’s
stature.” Id. at 911. If McCloud was able “to take even
one more step, [detectives] would have been within his
arm’s reach and vulnerable to serious or even fatal
injury.” Id. The Sixth Circuit reversed the district
court’s denial of summary judgment for qualified
immunity. Id. at 916.

App. 48
Chappell is distinct from the present case in several
ways. Seven feet with a mattress on the floor is not the
same as 34 feet without a mattress. Chappell makes it
clear that “if the detectives had hesitated one instant”
they could have suffered serious or fatal injuries,
especially since McCloud was already “moving quickly
towards” them. Id. at 911.
Here, it would take Studdard much longer to reach
Reed and Shepherd than it would have taken McCloud
to reach the detectives in Chappell. Unlike McCloud,
Studdard was not “moving quickly towards” Reed or
Shepherd. Id. In fact, there is evidence that Studdard
was not moving towards Reed or Shepherd at all, let
alone at a fast pace. Studdard was also not in a
confined area such as McCloud’s bedroom. Chappell is
readily distinguished from this case and is not an
appropriate comparison given the important factual
differences. Those differences made it reasonable for
officers to fear imminent harm in Chappell, but not in
this case.
Studdard’s right not to be shot unless perceived as
posing a threat to officers or others has been clearly
established by supporting caselaw.
Conclusion
Because the facts that Plaintiff has alleged and
shown make out a violation of a constitutional right
and the right at issue was clearly established at the
time of defendant’s alleged misconduct, qualified
immunity does not apply. Reed and Shepherd’s Motion
for Summary Judgment on the issue of qualified
immunity is DENIED.

App. 49
B. Municipal Liability for Shelby County
To successfully bring a claim against a local
government under 42 U.S.C. § 1983, a plaintiff must
establish that the local government’s “policy or custom
cause[d] the constitutional violation in question.”
Miller v. Calhoun Cty., 408 F.3d 803, 813 (6th Cir.
2005); see also Miller v. Sanilac Cnty., 606 F.3d 240,
254-55 (6th Cir. 2010); Waters v. City of Morristown,
Tenn., 242 F.3d 353, 362 (6th Cir. 2001). A plaintiff
may invoke a custom, policy, or practice sufficient to
state a claim for local government liability by alleging
“(1) the existence of an illegal official policy or
legislative enactment; (2) that an official with final
decision making authority ratified illegal actions;
(3) the existence of a policy of inadequate training or
supervision; or (4) the existence of a custom of
tolerance [of] or acquiescence [to] federal rights
violations.” D’Ambrosio v. Marino, 747 F.3d 378, 386
(6th Cir. 2014) (alterations in original). “‘A
municipality cannot be held liable solely because it
employs a tortfeasor—or, in other words, a
municipality cannot be held liable under § 1983 on a
respondeat superior theory.’” Bright v. Gallia Cnty.,
Ohio, 753 F.3d 639, 660 (6th Cir. 2014) (quoting Monell
v. Dep’t of Social Servs. of City of New York, 436 U.S.
658, 691 (1978) (emphasis original). Because a local
government does not incur respondeat superior liability
under § 1983, “a plaintiff must adequately plead
(1) that a violation of a federal right took place, (2) that
the defendants acted under color of state law, and
(3) that a municipality’s policy or custom caused that
violation to happen” to state a valid claim. Id. (citing

App. 50
Lambert v. Hartman, 517 F.3d 433, 439 (6th Cir.
2008)).
1. Legal Standard for Failure to Train
“[M]unicipal liability under § 1983 attaches
where—and only where—a deliberate choice to follow
a course of action is made from among various
alternatives by [the relevant] officials . . ..” Pembaur v.
City of Cincinnati, 475 U.S. 469, 483 (1986) (opinion of
Brennan, J.). “[T]he failure to provide proper training
may fairly be said to represent a policy for which the
city is responsible, and for which the city may be held
liable if it actually causes injury.” City of Canton v.
Harris, 489 U.S. 378, 388 (1989). “To succeed on a
failure to train or supervise claim, the plaintiff must
prove the following: (1) the training or supervision was
inadequate for the tasks performed; (2) the inadequacy
was the result of the municipality’s deliberate
indifference; and (3) the inadequacy was closely related
to or actually caused the injury.” Ellis v. Cleveland
Mun. School. Dist, 455 F.3d 690, 700 (6th Cir. 2006).
See also City of Canton, 48 U.S. at 388.
“[D]eliberate indifference is a stringent standard of
fault, requiring proof that a municipal actor
disregarded a known or obvious consequence of his
action.” Connick v. Thompson, 563 U.S. 51, 61 (2011)
(internal citation and quotation marks omitted). A
plaintiff can survive summary judgment by showing
that a municipality’s failure to train “ha[d] the highly
predictable consequence of constitutional violations of
the sort Plaintiff suffered.” Gregory v. City of
Louisville, 444 F.3d 725, 753 (6th Cir. 2006) (internal
citation and quotation marks omitted).

App. 51
Deliberate indifference can be established in two
ways. First, a plaintiff can show a “pattern of similar
constitutional violations by untrained employees[.]”
Connick, 563 U.S. at 62. Second, a plaintiff can show
that a pattern of past misconduct caused the violation
of constitutional rights alleged in suit and that “there
is essentially a complete failure to train the police
force, or training that is so reckless or grossly negligent
that future police misconduct is almost inevitable, or
would properly be characterized as substantially
certain to result.” Hays v. Jefferson County, Ky., 668
F.2d 869, 874 (6th Cir. 1982) (internal citations
omitted). Where a claim of deliberate indifference is
premised only on the violation of constitutional rights
alleged in suit and the municipality provides some level
of training, a plaintiff must show that a municipality
“was on notice that, absent additional training, it was
so highly predictable that [officers] would misuse
deadly force as to amount to conscious disregard for
citizens’ rights.” Harvey v. Campbell County, Tenn, 453
Fed. Appx. 557, 567 (6th Cir. 2011).
2. Analysis of Shelby
Training Policies

County’s

Shelby County argues that even if a constitutional
violation occurred in this case, “Plaintiff Angela
Studdard can submit no evidence showing that such a
violation was the result of a policy, practice, custom, or
failure to train sufficient to establish liability on the
part of Shelby County.” (Shelby County Memo. in
Support of Mot. for Sum. J., ECF No. 90-1 at PageIDs
835-36.) Even if Shelby County’s training was
insufficient, Shelby County asserts “Plaintiff can point

App. 52
to no evidence showing that the deficiency was the
result of deliberate indifference by the County.” (Shelby
County Reply to Mot. for Sum. J., ECF No. 122 at
PageIDs 1665-66.)
Plaintiff argues “that there is admissible evidence
in the record of this cause to establish that the training
was inadequate for the tasks performed, the
inadequacy was the result of Defendant Shelby
County’s deliberate indifference and the inadequacy
was closely related to or closely caused Eddie
Studdard’s injury.” (Response to Mot. for Sum. J., 115-1
at PageID 1617.) Plaintiff claims the “clearly improper
training of Defendants Shepherd and Reed” is “that
there is no 21 foot rule or 25 foot rule that allows a
Shelby County Deputy to shoot any individual who is
holding a bladed weapon or knife but not attacking,
approaching or constituting an imminent threat of
serious bodily injury or death to the officer or anyone
else.” (Id.)
Plaintiff argues she “will rely upon Defendant Erin
Shepherd’s testimony to prove said inadequate
training.” (Id.) Plaintiff does not cite any specific
portion of Shepherd’s deposition or any other part of
the record for support. Plaintiff does not cite any
evidence on the record that Shelby County had
deliberate indifference towards constitutional rights. “A
district court is not required to speculate on which
portion of the record the nonmoving party relies, nor is
it obligated to wade through and search the entire
record for some specific facts that might support the
nonmoving party’s claim.” InterRoyal Corp. v.
Sponseller, 889 F.2d 108, 111 (6th Cir. 1989). Plaintiff’s

App. 53
response does not cite evidence that creates a genuine
dispute of a material fact.
Shepherd’s deposition provides evidence that
deputies did receive training about when they could
use deadly force.
Q. In this case, did you feel that Eddie Studdard
was an eminent or immediate threat to cause
you serious bodily injury or death at the time
you pulled the trigger?
A. Yes.
Q. Why?
A. Because we are trained on a 25 foot rule in
relation to bladed weapons. That someone
within the 25 feet can get to us and injure us
before we can draw out weapons and pull the
trigger. And so we’re not supposed to – we’re
trained not to let someone in that 25 foot
threshold who has a weapon, [whether] it’s to
their throat, out at us, or anything like that.
Q. Okay. You called it the 25 foot rule. Is that –
is that a written rule that Shelby County
Sheriff’s Department has adopted?
A. As far as I know, yes. The research has been
done on it. It used to be 21 feet, but I believe
they’ve extended it in the past few years to 25
feet.
(Shepherd Depo., ECF No. 91-1 at p. 173 l. 6-25.)

App. 54
Shepherd’s above testimony does not support
Plaintiff’s failure to train allegation. Shelby County
has policies for use of deadly force. (ECF No. 89-8.) The
record shows both Shepherd and Reed were trained in
Shelby County’s Use of Force and Deadly Force
Policies. (Training Logs, ECF No. 89-9 at PageIDs
695-97, 707-09.) Because Shepherd and Reed received
at least some training on the use of deadly force,
Plaintiff must show that Shelby County “was on notice
that, absent additional training, it was so highly
predictable that [officers] would misuse deadly force as
to amount to conscious disregard for citizens’ rights.”
Harvey, 453 Fed. Appx. at 567. She has failed to do so.
The record reflects no genuine issue of material fact
as to Shelby County’s deliberate indifference with
respect to its deadly force policy: Shelby County was
not deliberately indifferent. First—and of critical
importance to our analysis—Plaintiff has alleged no
prior instances of unconstitutional conduct that would
have put Shelby County on notice that its training was
unconstitutional. Accordingly, Shelby County cannot
have been deliberately indifferent based on prior
constitutional violations.
Plaintiff has not cited evidence that shows a
genuine dispute about whether: (1) the training or
supervision was inadequate for the tasks performed, or
(2) the inadequacy was the result of the municipality’s
deliberate indifference. Without that evidence, a
plaintiff’s failure to train claims cannot survive
summary judgment. See Ellis, 455 F.3d at 700 (6th Cir.
2006). Shelby County’s Motion for Summary Judgment
is, therefore, GRANTED.

App. 55
CONCLUSION
Defendants Reed and Shepherd’s Motion for
Summary Judgment on the issue of qualified immunity
is DENIED. Shelby County’s Motion for Summary
Judgment is GRANTED.
SO ORDERED, this 22nd day of January, 2019.
/s/ Jon P. McCalla____________________
JON P. McCALLA
UNITED STATES DISTRICT JUDGE

